TN

@OCKLE

2311 Douglas Street Brie f E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga I Est. 19 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No! 19-756

MALLORY JONES and TROY A. MOSES,
Petitioners,
vs.

RAMONE LAMKIN, individually and in his official
capacity as Marshal of the Civil and Magistrate Court
of Richmond County, Georgia and AUGUSTA; GEORGIA,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of January, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE BRIEF AND BRIEF OF THE
NATIONAL FRATERNAL ORDER OF POLICE, AS AMICUS CURIAE IN SUPPORT OF PETITIONERS MALLORY
JONES AND TROY A. MOSES in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LARRY H. JAMES
CRABBE, BROWN & JAMES, LLP
500 S. Front Street
Suite 1200
Columbus, OH 43215
614-228-5511
Email: Ijames@cbjlawyers.com
Counsel for Amicus Curiae
National Fraternal
Order of Police

Subscribed and sworn to before me this 7th day of January, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Lue Qudrow- ,
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 39196

 

 
John Bush Long

Tucker Long, PC

P.O. Box 2426

Augusta, GA 30903

E: jlong@tuckerlong.com

T: 706-722-0771

Counsel for Mallory Jones, et al.

Edward J. Tarver

Enoch Tarver, P.C.

3540 Wheeler Road, Ste. 312
Augusta, GA 30909

E: etarver@enochtarver.com
T: 706-738-4141

Counsel for Ramone Lamkin

Jody M. Smitherman

City of Augusta

501 Greene St., Suite 302
Augusta, GA 30901

E: jsmitherman@augustaga.gov
T: 706-842-5550

Counsel for Augusta, GA
